App. 1
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KENNETH MILLER,
Plaintiff-Appellant,
v.
ROBERT FERGUSON,
Washington State
Attorney General,
Respondent-Appellee.

No. 19-35032
D.C. No.
2:18-cv-00530-RSM
Western District
of Washington,
Seattle
ORDER
(Filed Apr. 26, 2019)

Before: O’SCANNLAIN and GOULD, Circuit Judges.
The request for a certificate of appealability
(Docket Entry No. 2) is denied because the underlying
28 U.S.C. § 2254 petition fails to state any federal constitutional claims debatable among jurists of reason.
See 28 U.S.C. § 2253(c)(2)-(3); Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012) (“When . . . the district court
denies relief on procedural grounds, the petitioner
seeking a COA must show both ‘that jurists of reason
would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.’ ”) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)).

App. 2
Any pending motions are denied as moot.
DENIED.

App. 3
APPENDIX B
Honorable Martinez-Donohue
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
KENNETH MILLER,
Petitioner,

NO.
2:18-cv-0530-RSM-JPD
NOTICE OF APPEAL

v.
ROBERT FERGUSON,
Washington State
Attorney General,

(Filed Jan. 14, 2019)

Respondent.
Notice is hereby given that KENNETH MILLER,
Petitioner, hereby appeals to the United States Court
of Appeals for the Ninth Circuit from the Order Adopting Report and Recommendation in Part and Dismissing Federal Habeas Corpus Action, entered by the
District Court on December 17, 2018, and from the
Judgment in a Civil Case entered on January 10, 2019.

App. 4
DATED this 14th day of January, 2019.
s/ James E. Lobsenz
James E. Lobsenz WSBA #8787
Attorneys for Petitioner
CARNEY BADLEY
SPELLMAN, P.S.
701 Fifth Avenue, Suite 3600
Seattle, WA 98104
Phone: (206) 622-8020
Facsimile: (206) 467-8215
[Certificate Of Service Omitted]

App. 5
APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
KENNETH MILLER,
Petitioner,
v.
ROBERT FERGUSON,
Washington State
Attorney General,
Respondent.

CASE NO. C18-530RSM
ORDER ADOPTING
REPORT AND
RECOMMENDATION IN
PART AND DISMISSING
FEDERAL HABEAS
CORPUS ACTION
(Filed Dec. 17, 2018)

Petitioner, proceeding under 28 U.S.C. § 2254,
seeks to challenge his state court conviction on the
basis of ineffective assistance of counsel. Dkts. #1 and
#2. The Honorable James P. Donohue, United States
Magistrate Judge, thoroughly considered the Petition
and determined that this Court did not have subject
matter jurisdiction and accordingly recommended that
Petitioner’s action be dismissed. Dkt. #13. Petitioner
has filed Objections to the Report and Recommendation. Dkt. #15. Having reviewed the Objections and the
rest of the record, the Court adopts the Report and Recommendation in part and dismisses the Petition.
Petitioner was previously convicted of a felony
offense in a Washington State court and under Washington State law. Petitioner believes that his trial counsel was ineffective and that he was denied his
Sixth Amendment right to counsel. Dkt. #1 at ¶ 5.1.

App. 6
Petitioner seeks relief on that basis. However, at Petitioner’s request, the parties have not briefed the substantive issue and instead have addressed whether
Petitioner is “in custody” such that the Court has jurisdiction under 28 U.S.C. § 2254.
By the time the Petition was filed, Petitioner had
already served his jail sentence and his term of community custody. Dkt. #1 at ¶ 9.1. Thus, Petitioner concedes that he is not in the physical custody of the State.
Id. However, as a consequence of Petitioner’s conviction, he may not lawfully own, possess, or have a firearm under his control. REV. CODE WASH. § 9.41.040(1).
Petitioner maintains that this restriction on his Constitutional right is a “serious disability which suffices
to constitute ‘custody’ for habeas corpus purposes.”
Dkt. #1 at ¶ 9.2.
As set forth in the Report and Recommendation,
no legal authority establishes that a restriction on the
possession of firearms places a person “in custody” for
the purpose of habeas corpus petitions. Certain restraints upon the “liberty to do those things which in
this country free [people] are entitled to do,” can constitute custody for purposes of habeas relief. Jones v.
Cunningham, 371 U.S. 236, 243 (1963). But within the
Ninth Circuit, “[t]he precedents that have found a restraint on liberty [to constitute “custody”] rely heavily
on the notion of a physical sense of liberty—that is,
whether the legal disability in question somehow limits the putative habeas petitioner’s movement.” Dkt.
#13 at 6 (quoting Williamson v. Gregoire, 151 F.3d
1180, 1183 (9th Cir. 1998)).

App. 7
Petitioner’s Objections1 retrace many of the same
arguments he has previously advanced, while adding
little. On the whole, Petitioner’s arguments stretch the
precedent upon which they rely beyond recognition.
For instance, Petitioner argues that the Report and
Recommendation adopts an overly rigid distinction between direct and collateral consequences of a conviction and that such an approach has been rejected by
the Supreme Court. Dkt. #15 at 4-5 (relying on Padilla
v. Kentucky, 559 U.S. 356 (2010)). But Padilla’s consideration of direct and collateral consequences was in a
markedly different context and is inapplicable. The
Court does not understand Petitioner’s argument to be
that his counsel was ineffective by failing to inform Petitioner of the effect a conviction would have on his
right to bear arms. This presents but one instance of
Petitioner’s arguments that, while convincingly made,
lack an adequate legal basis. In sum, Petitioner’s Objections do not establish any factual or legal errors in
the Report and Recommendation. Under the prevailing law and for the reasons aptly articulated in the
Report and Recommendation, Petitioner is not “in custody” and therefore cannot pursue this Petition.
The Court does diverge from the Report and Recommendation in one regard. The Court does not believe that a certificate of appealability should issue.
In a habeas proceeding under 28 U.S.C. § 2254, a
1

Petitioner’s Objections are over-length under Local Civil
Rule 72. Accordingly, the Court need not consider pages filed in
excess of the applicable limit. Even so, nothing therein would alter the Court’s decision.

App. 8
certificate of appealability should issue “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c). A substantial showing requires that “jurists of reason would
find it debatable whether the petition states a valid
claim of the denial of a constitutional right.” Wilson v.
Belleque, 554 F.3d 816, 826 (9th Cir. 2009). Where a petition is dismissed on procedural grounds, the petitioner must also show that “jurists of reason would find
it debatable whether the district court was correct in
its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000). As established in the Report and Recommendation, Petitioner is clearly not in custody for purposes of § 2254 and the Court finds that reasonable
jurists would not find such a procedural ruling debatable. Accordingly, the Court will not grant a certificate
of appealability.
Having reviewed the Petition for a Writ of Habeas
Corpus, Petitioner’s Brief in Support, Respondent’s
Answer, Petitioner’s Response, the Report and Recommendation, Petitioner’s Objections, Respondent’s Response to Objections, and the remainder of the record,
the Court hereby finds and ORDERS:
1.

The Report and Recommendation (Dkt. #13)
is ADOPTED IN PART.

2.

The Petition for a Writ of Habeas Corpus (Dkt.
#1), and this action, are DISMISSED with
prejudice.

3.

A certificate of appealability is DENIED.

App. 9
4.

The CLERK IS DIRECTED to send a copy of
this Order to the parties and to Magistrate
Judge James P. Donohue.

5.

This matter is CLOSED.

DATED this 17 day of December 2018.
/s/ Ricardo S. Martinez
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

App. 10
APPENDIX D
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
KENNETH MILLER,
Petitioner,

Case No.
C18-530-RSM-JPD
REPORT AND
RECOMMENDATION

v.
ROBERT FERGUSON,

(Filed Aug. 14, 2018)

Respondent.
I.

INTRODUCTION

Petitioner Kenneth Miller proceeds through counsel in this 28 U.S.C. § 2254 habeas corpus action challenging a 2012 King County Superior Court felony
conviction for Assault 2. As his sole ground for relief,
he asserts that his trial counsel was ineffective. Dkt. 1
at 4. The parties have not briefed the merits of petitioner’s claim, however, because the Court must first
decide whether it has subject matter jurisdiction over
the habeas petition. See id. (petitioner’s request that
the Court decide subject matter jurisdiction before the
parties brief the merits). Habeas relief is available only
to a petitioner who is “in custody” pursuant to the state
court judgement he is challenging. 28 U.S.C. § 2254(a).
Petitioner has fully served his six-month jail sentence
and his 12-month term of community custody. Dkt. 1
at 7. Nevertheless, he argues that he is “in custody” for
purposes of § 2254 because he continues to suffer a
serious disability as a result of his 2012 conviction,

App. 11
namely that state law prohibits him from possessing a
firearm, which deprives him of his Second Amendment
right to bear arms. See Dkt. 2. This is an issue that has
not been decided by the Supreme Court or Ninth Circuit.
Respondent Robert Ferguson, Washington State
Attorney General, filed an answer in which he argues
that the Court does not have subject matter jurisdiction over the petition and that he is not a proper respondent to the action. Dkt. 8. Petitioner filed a reply.
Dkt. 12.
Having considered the parties’ submissions, the
balance of the record, and the governing law, the Court
recommends that the action be DISMISSED without
prejudice for lack of subject matter jurisdiction and
that a certificate of appealability be GRANTED as to
the issue of subject matter jurisdiction. Because the
Court concludes that it does not have subject matter
jurisdiction, it does not consider respondent’s argument that he is not a proper respondent.
II.

BACKGROUND

A. Facts
In March 2012, a King County Superior Court
judge sentenced petitioner, who had been convicted of
Assault 2 by a jury, to six months confinement and
12 months community custody. Dkt. 4 at 12, 17. With
credit for time served, petitioner had satisfied the jail

App. 12
term by the date of sentencing. Id. at 17. The term of
community custody expired 12 months later in 2013.
Although petitioner is no longer incarcerated or
on community custody, his conviction disqualifies him
from lawfully owning, possessing, or having any firearm under his control. See RCW 9.41.010(3)(a) (Assault
2 is a “crime of violence”); RCW 9.41.010(23) (a “crime
of violence” is a “serious offense”); RCW 9.41.040(1) (“A
person . . . is guilty of the crime of unlawful possession
of a firearm in the first degree, if the person owns, has
in his or her possession, or has in his or her control any
firearm after having been previously convicted . . . of
any serious offense. . . .”). As a result of this prohibition, petitioner had to get rid of a gun that his grandfather had given him when he was a young man, and
his wife is unable to keep a firearm in their home for
her protection. Dkt. 2 at 24.
B. Procedural History
Petitioner’s attempts to overturn his conviction on
direct appeal and through a personal restraint petition
were fruitless. See Dkt. 11 at Exs. 1-21. He timely filed
this federal habeas action after properly exhausting
his state remedies, as required by the federal habeas
statute. See Dkt. 8 at 3 (respondent’s brief conceding
that petitioner properly exhausted his ground for relief ).

App. 13
III.

DISCUSSION

Petitioner bears the burden of establishing that he
is “in custody” within the meaning of § 2254. See
Maleng v. Cook, 490 U.S. 488, 490 (1989) (per curiam)
(habeas statute’s “in custody” requirement is jurisdictional); Ashoff v. City of Ukiah, 130 F.3d 409, 410 (9th
Cir. 1997) (petitioner must establish subject matter
jurisdiction). “[H]abeas has not been restricted to situations in which the applicant is in actual, physical custody.” Jones v. Cunningham, 371 U.S. 236, 239 (1963).
Conditions that “significantly restrain [a] petitioner’s
liberty to do those things which in this country free
[people] are entitled to do,” are “enough to invoke the
help of the Great Writ.” Id. at 243; see also Hensley
v. Municipal Court, 411 U.S. 345, 351 (1973) (“The
custody requirement of the habeas corpus statute
is designed to preserve the writ of habeas corpus as
a remedy for severe restraints on liberty.”) (emphasis
added).
Courts have found the “in custody” requirement
satisfied where a petitioner is on parole, Jones, 371 U.S.
at 243, or probation, Chaker v. Grogan, 428 F.3d 1215,
1219 (9th Cir. 2005); a noncitizen seeks to enter the
United States, Jones, 371 U.S. at 243 (collecting cases);
a person challenges his induction into the military, id.;
a convict is released on his or her own recognizance
pending execution of the sentence, Hensley, 411 U.S. at
351; a petitioner has been ordered to attend a 14-hour
alcohol rehabilitation program, Dow v. Cir. Court of the
First Cir., 995 F.2d 922, 923 (9th Cir. 1993) (per curiam), or complete community service, Barry v. Bergen

App. 14
Cnty. Probation Dep’t, 128 F.3d 152, 161 (3rd Cir. 1997)
(500 hours of community service); Nowakowski v. New,
835 F.3d 210, 217 (2d Cir. 2016) (1 day community service); and a Native American is stripped of tribal membership and “banished” from a reservation, Poodry v.
Tonawanda Band of Seneca Indians, 85 F.3d 874, 879
(2d Cir. 1996).1
By contrast, “once the sentence imposed for a
conviction has completely expired, the collateral consequences of that conviction are not themselves sufficient to render an individual ‘in custody’ for the
purposes of a habeas attack upon it.” Maleng, 490 U.S.
at 492; see also Williamson v. Gregoire, 151 F.3d 1180,
1183 (9th Cir. 1998). “Some of the typical collateral consequences of a conviction include the inability to vote,
engage in certain businesses, hold public office, or
serve as a juror.” Williamson, 151 F.3d at 1183 (citing
Maleng, 490 U.S. at 491); see also Lefkowitz v. Fair, 816
F.2d 17, 20 (1st Cir. 1987) (holding that revocation of
medical license is collateral consequence); Ginsberg v.
Abrams, 702 F.2d 48, 49 (2d Cir. 1983) (per curiam)
(holding that judge’s removal from bench, loss of right
to practice law, and disqualification from licensure as
a real estate agent are collateral consequences). Courts
1

Petitioner also cites Settler v. Yakima Tribal Court, 419
F.2d 486 (9th Cir. 1969), which held that the court had subject
matter jurisdiction over a habeas action challenging a tribal
court’s imposition of fines and temporary revocation of a tribal
member’s fishing license. Settler, however, is no longer good law.
Moore v. Nelson, 270 F.3d 789, 791-92 (9th Cir. 2001) (explaining
that Settler was abrogated by more recent Supreme Court authority).

App. 15
also recognize that fines, sex offender registration requirements, suspension of driving privileges, and “enhancement of subsequent sentences on the basis of
prior convictions” are collateral consequences. E.g.,
Maleng, 490 U.S. at 492 (holding that use of conviction
to enhance length of sentence imposed for subsequent
conviction is collateral consequence); Williamson, 151
F.3d at 1183-84 (collecting cases holding that fines are
collateral consequences; holding that sex offender registration is collateral consequence); Harts v. Indiana,
732 F.2d 95, 96 (7th Cir. 1984) (per curiam) (holding
that one-year suspension of driving privileges is collateral consequence).
With respect to the specific disability at issue in
this case—loss of the right to possess a firearm—the
only circuit court to address the issue held that it is a
collateral consequence, not a significant restraint on
liberty. Harvey v. South Dakota, 526 F.2d 840, 841 (8th
Cir. 1975) (per curiam); see also Watson v. Coakley, No.
11-11697, 2011 WL 6046529, at *1 (D. Mass. Dec. 2,
2011) (loss of right to possess firearm insufficient to establish “custody”); People ex rel. Sherman v. People of
State of Ill., No. 03-385, 2006 WL 200189, at *1-*2 (N.D.
Ill. Jan. 19, 2006) (same). The First and Ninth Circuits
have both endorsed this conclusion in dicta. Williamson, 151 F.3d at 1184 (“registration and notification
provisions are more analogous to a loss of the right to
vote or own firearms, or the loss of a professional license, rather than probation or parole”); Lefkowitz, 816
F.3d at 20 (“Government regulation, in the nature of
the imposition of civil disabilities—say, loss of voting

App. 16
rights or disqualification from obtaining a gun permit—often follows a defendant long after his sentence
has been served [and are collateral consequences].”).
Petitioner asserts several reasons why this Court
should reach a different conclusion, none of which the
Court finds persuasive. First, he argues that the circuit
court cases addressing gun restrictions were decided
before the Supreme Court announced that the Second
Amendment right to keep and bear arms for selfdefense is an individual right that applies to the
States. See District of Columbia v. Heller, 554 U.S. 570,
595 (2008) (Second Amendment rights are individual
rights); McDonald v. Chicago, 561 U.S. 742, 750 (2010)
(Second Amendment rights are fully applicable to the
States through the Fourteenth Amendment). Petitioner notes that the Supreme Court has recognized
that the right to keep and bear arms is “deeply rooted
in this Nation’s history and tradition,” McDonald, 561
U.S. at 768 (quoted source omitted), and “among those
fundamental rights necessary to our system of ordered
liberty,” id. at 778. He also cites Supreme Court authority recognizing that the right of self-defense is central
to the Second Amendment and that a prohibition on
handgun possession in one’s home is a “severe restriction.” Heller, 554 U.S. at 628-29; see also Caetano
v. Mass., 136 S. Ct. 1027, 1033 (2016) (per curiam)
(Alito, J., concurring) (referring to “fundamental right
of self-defense”). According to petitioner, the firearm
prohibition “significantly restrain[s]” his “liberty to do
those things which in this country free [people] are

App. 17
entitled to do,” Jones, 371 U.S. at 243, and therefore he
is “in custody” within the meaning of § 2254. Dkt. 2 at
16.
Petitioner relies on an understanding of “liberty”
that is tied to fundamental constitutional rights, specifically the Second Amendment right to keep and bear
arms. But courts that have applied “liberty” as the Supreme Court used that term in Jones have not adopted
such a definition. As the Ninth Circuit has explained:
The precedents that have found a restraint on
liberty rely heavily on the notion of a physical
sense of liberty—that is, whether the legal
disability in question somehow limits the
putative habeas petitioner’s movement. The
Supreme Court justified extending habeas
corpus to [noncitizens] denied entry into the
United States by explaining the denial of entry as an impingement on movement. Jones,
371 U.S. at 239, 83 S. Ct. 373. And the Court
relied on a similar rationale to explain why a
parolee or a convict released on his own recognizance is “in custody.” Id. at 243, 83 S. Ct.
373; Hensley, 411 U.S. at 351, 93 S. Ct. 1571.
This circuit similarly explained that mandatory attendance at an alcohol rehabilitation
program satisfies the “in custody” requirement because it requires the petitioner’s
“physical presence at a particular place.” Dow,
995 F.2d at 923.
Williamson, 151 F.3d at 1183 (emphases and alteration
added). Unlike the cases that have found the “in custody”
requirement satisfied, Washington’s firearm prohibition

App. 18
does not restrain petitioner’s physical liberty. “[T]he
law neither targets [petitioner’s] movement in order to
impose special requirements, nor does it demand his
physical presence at any time or place.” Id. at 1184. As
such, finding that petitioner is “in custody” would improperly extend the scope of habeas jurisdiction beyond the bounds established by the Supreme Court
and federal circuit courts.
Second, petitioner seeks to distinguish the instant
case from those involving collateral consequences by
arguing that habeas actions involve restrictions on
liberty, whereas the collateral consequences cases involve restrictions on property. Dkt. 12 at 4-5. Again, petitioner relies on an understanding of “liberty” that is
not reflected in the caselaw, as discussed above. Moreover, the right to vote has been described as “one of
the most fundamental and cherished liberties in our
democratic system of government,” Burson v. Freeman,
504 U.S. 191, 214 (1992) (Kennedy, J., concurring), and
yet post-conviction restrictions on that right are collateral consequences to the conviction, not significant restrictions on liberty within the meaning of § 2254,
Williamson, 151 F.3d at 1183. Furthermore, prohibitions on the possession of firearms by felons are regulatory measures. See Heller, 554 U.S. at 626-27, 627
n.26. The Ninth Circuit has noted that when a state
law is “regulatory and not punitive,” it bolsters the conclusion that the effects of such laws are collateral consequences, and not restraints on liberty. Williamson,
151 F.3d at 1184.

App. 19
Third, although petitioner recognizes that the
right to bear arms is not absolute, Heller, 554 U.S. at
626 (“Like most rights, the right secured by the Second
Amendment is not unlimited. . . . [N]othing in our
opinion should be taken to cast doubt on the longstanding prohibitions on the possession of firearms by felons. . . .”), he argues:
If the legal justification for denying a person
his or her fundamental right to keep a firearm
for the core lawful purpose of self-defense is
that the person has been convicted of a felony,
then the firearm prohibition is invalid if the
felony conviction is invalid. If a State obtains
a felony conviction by means of some other unconstitutional action—such as denying the defendant’s Sixth Amendment right to a jury
trial, or to the assistance of counsel—then no
lawful basis exists for abridging the convicted
person’s Second Amendment right to bear
arms. In this situation, if habeas corpus review of the constitutionality of the conviction
is not available, then one constitutional violation will simply lead automatically to a second
constitutional violation. It cannot be that a
convicted state court defendant can be denied
federal court review of an unconstitutional
conviction because the only remaining restriction
on his liberty is the continuing violation of another one of his federal constitutional rights.
Dkt. 2 at 15 (emphases in original); see also Dkt. 12 at
10. Petitioner goes on to assert that it is illogical to allow defendants who receive longer sentences for more
serious crimes to access the Great Writ but to prohibit

App. 20
those who receive shorter sentences, like him, from
challenging their convictions in federal court. Dkt. 2 at
15-16.
In essence, petitioner asserts that it would be unfair for the Court to deprive him of the opportunity to
challenge his state conviction in federal court. In Settler v. Yakima Tribal Court, 419 F.2d 486 (9th Cir.
1969), the Ninth Circuit relied on similar reasoning
when it concluded that it had jurisdiction over the petitioner’s 28 U.S.C. § 2241 habeas challenge to a tribal
court’s imposition of fines and temporary revocation of
his fishing license: “The availability of habeas corpus
appears particularly appropriate where the petitioner,
although not held presently in physical custody, has no
other procedural recourse for effective judicial review
of the constitutional issues he raises.” Id. at 490. As the
Ninth Circuit more recently explained, however, Settler’s “interventionist reasoning was not unusual at
the time” but is no longer good law. Moore v. Nelson,
270 F.3d 789, 791-92 (9th Cir. 2001). Specifically, the
Moore court explained that Settler’s reasoning is inconsistent with the Supreme Court’s decision in Hensley,
which reiterated that to be “in custody,” a petitioner
must suffer a severe restraint on physical liberty. Id.
Indeed, the relevant question here is whether Washington’s firearm prohibition is a “restraint on liberty”
within the meaning of the caselaw, or a “collateral consequence” of a conviction. As discussed above, courts
rely on “a physical sense of liberty,” Williamson, 151
F.3d at 1183, and have not expanded the definition of
liberty in this context to other constitutional rights.

App. 21
Finally, petitioner attempts to equate § 2254’s “in
custody” requirement with Washington law that requires someone who wants to challenge his conviction
in a personal restraint petition to be under some form
of “restraint.” Dkt. 2 at 6. In fact, the two requirements
are distinct. Compare Wash. RAP 16.4(b) (“A Petitioner
is under a “restraint” if the Petitioner . . . is under some
other disability resulting from a judgment or sentence
in a criminal case.”) (emphasis added), with Hensley,
411 U.S. at 351 (“The custody requirement of the habeas corpus statute is designed to preserve the writ of
habeas corpus as a remedy for severe restraints on liberty.”) (emphasis added). Accordingly, the Washington
courts’ decision to hear his personal restraint petition
does not mean that he is “in custody” for purposes of
this case.
In sum, petitioner has not established that he is
“in custody” within the meaning of § 2254, and his federal habeas petition should be denied without prejudice for lack of jurisdiction.
IV.

CERTIFICATE OF APPEALABILITY

A petitioner seeking post-conviction relief under
§ 2254 may appeal a district court’s dismissal of his
federal habeas petition only after obtaining a certificate of appealability from a district or circuit judge. A
certificate of appealability may issue only where a petitioner has made “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(3). A petitioner satisfies this standard “by demonstrating that

App. 22
jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El
v. Cockrell, 537 U.S. 322, 327 (2003). Because the Ninth
Circuit has not addressed the jurisdictional issue raised
in this case, the Court concludes that a certificate of
appealability should be granted as to the question of
subject matter jurisdiction.
V.

CONCLUSION

The Court recommends that this action be DISMISSED without prejudice for lack of subject matter
jurisdiction. The Court further recommends that a certificate of appealability be GRANTED as to the question of subject matter jurisdiction. A proposed order
accompanies this Report and Recommendation.
Objections to this Report and Recommendation, if
any, should be filed with the Clerk and served upon all
parties to this suit by no later than September 4,
2018. Failure to file objections within the specified
time may affect your right to appeal. Objections should
be noted for consideration on the District Judge’s motion calendar for the third Friday after they are filed.
Responses to objections may be filed within fourteen
(14) days after service of objections. If no timely objections are filed, the matter will be ready for consideration by the District Judge on September 7, 2018.
This Report and Recommendation is not an appealable order. Thus, a notice of appeal seeking review

App. 23
in the Court of Appeals for the Ninth Circuit should
not be filed until the assigned District Judge acts on
this Report and Recommendation.
Dated this 14th day of August, 2018.
/s/ James P. Donohue
JAMES P. DONOHUE
United States
Magistrate Judge

App. 24
APPENDIX E
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
STATE OF WASHINGTON, )
Plaintiff, )
)
Vs.
)
)
KENNETH FRANKLIN
)
MILLER
)
Defendant, )
I.

No. 09-1-07196-5 SEA
JUDGMENT
AND SENTENCE
FELONY (FJS)
(Filed Mar. 30, 2012)

HEARING

1.1 The defendant, the defendant’s lawyer, LENELL
NUSSBAUM, and the deputy prosecuting attorney
were present at the sentencing hearing conducted today. Others present were: __________________________
__________________________________________________
__________________________________________________
II.

FINDINGS

There being no reason why judgment should not be
pronounced, the court finds:
2.1 CURRENT OFFENSE(S): The defendant was
found guilty on 03/22/2012 by jury verdict of:

App. 25
Count No. I

Crime: ASSAULT IN THE SECOND
DEGREE
RCW 9A.36.021(1)(a)
Crime Code 01018
Date of Crime 11/06/2009 Incident No.
Count No.
Crime:
RCW
Date of Crime

Crime Code
Incident No.

Count No.
Crime:
RCW
Date of Crime

Crime Code
Incident No.

Count No.
Crime:
RCW
Date of Crime

Crime Code
Incident No.

[X] Additional current offenses are attached in Appendix A
SPECIAL VERDICT or FINDING(S):
(a) [X] While armed with a firearm in count(s) ___
RCW 9.94A.533(3).
(b) [X] While armed with a deadly weapon other than
a firearm in count(s) ___ RCW 9.94A.533(4).
(c) [X] With a sexual motivation in count(s) ___
RCW 9.94A.835.
(d) [X] A V.U.C.S.A. offense committed in a protected
zone in count(s) ___ RCW 69.50.435.
(e) [X] Vehicular homicide [X] Violent traffic offense
[X] DUI [X] Reckless [X] Disregard
(f ) [X] Vehicular homicide by DUI with ___ prior conviction(s) for offense(s) defined in RCW
46.61.5055, RCW 9.94A.533(7).

App. 26
(g) [X] Non-parental kidnapping or unlawful imprisonment with a minor victim. RCW 9A.44.128,
.130.
(h) [X] Domestic violence as defined in RCW
10.99.020 was pled and proved for count(s) ___
_________________
(i) [X] Current offenses encompassing the same
criminal conduct in this cause are count(s)
______ RCW 9.94A.589(1)(a)
(j) [X] Aggravating circumstances as to count(s)
_______: ____________________________________
2.2 OTHER CURRENT CONVICTION(S): Other
current convictions listed under different cause numbers used in calculating the offender score are (list offense and cause number): _________________________
________________________________________________
2.3 CRIMINAL HISTORY: Prior convictions constituting criminal history for purposes of calculating
the offender score are (RCW 9.94A.525):
[X] Criminal history is attached in Appendix B.
[X] One point added for offense(s) committed while
under community placement for count(s)
2.4 SENTENCING DATA:
Sentencing Offender
Seriousness Standard
Data
Score
Level
Range
Count I
Count
Count
Count

0

IV

3 TO 9

App. 27
Total
Maximum
Enhancement Standard Range Term
10 YEARS AND/
3 TO 9 MONTHS OR $20,000

[X] Additional current offense sentencing data is attached in Appendix C.
2.5

EXCEPTIONAL SENTENCE:

[X] Findings of Fact and Conclusion of Law as to sentence above the standard range:
Finding of Fact: The jury found or the defendant
stipulated to aggravating circumstances as to
Count(s) ____________.
Conclusion of Law: These aggravating circumstances constitute substantial and compelling reasons that justify a sentence above the standard
range for Count(s) _________. [ ] The court would
impose the same sentence on the basis of any one
of the aggravating circumstances.
[ ] An exceptional. sentence above the standard
range is imposed pursuant to RCW 9.94A.535(2) (including free crimes or the stipulation of the defendant).
Findings of Fact and Conclusions of Law are attached
in Appendix D.

App. 28
[ ] An exceptional sentence below the standard range
is imposed. Findings of Fact and Conclusions of Law
are attached in Appendix D.
The State [ ] did [ ] did not recommend a similar sentence (RCW 9.94A.480(4)).
III.

JUDGMENT

IT IS ADJUDGED that defendant is guilty of the current offenses set forth in Section 2.1 above and Appendix A.
[X]

The Court DISMISSES Count(s) ____________.
IV.

ORDER

IT IS ORDERED that the defendant serve the determinate sentence and abide by the other terms set forth
below.
4.1 RESTITUTION AND VICTIM ASSESSMENT:
[X] Defendant shall pay restitution to the Clerk
of this Court as set forth in attached Appendix E.
[X] Defendant shall not pay restitution because
the Court finds that extraordinary circumstances exist, and the court, pursuant to RCW
9.94A.753(5), sets forth those circumstances
in attached Appendix E.
[🗸] Restitution to be determined at future restitution hearing on (Date) ______ at ______m.
[🗸] Date to be set.

App. 29
[🗸] Defendant waives presence at future
restitution hearing(s).
[X] Restitution is not ordered.
Defendant shall pay Victim Penalty Assessment
pursuant to RCW 7.68.035 in the amount of $500.
4.2 OTHER FINANCIAL OBLIGATIONS: Having
considered the defendant’s present and likely future financial resources, the Court concludes that
the defendant has the present or likely
future ability to pay the financial obligations imposed. The Court waives financial obligation(s)
that are checked below because the defendant
lacks the present and future ability to pay them.
Defendant shall pay the following to the Clerk of
this Court:
(a) [🗸] $1066.38, Court costs (RCW 9.94A.030, RCW
10.01.160); [X] Court costs are waived;
(b) [X] $100 DNA collection fee (RCW 43.43.7541)
(mandatory for crimes committed after
7/1/02);
(c) [X] $___, Recoupment for attorney’s fees to
King County Public Defense Programs
(RCW 9.94A.030); [X] Recoupment is waived;
(d) [X] $___, Fine; [X] $1,000, Fine for VUCSA;
[X] $2,000, Fine for subsequent VUCSA
(RCW 69.50.430); [X] VUCSA fine waived;
(e) [X] $___, King County Interlocal Drug Fund
(RCW 9.94A.030); [X] Drug Fund payment
is waived;
(f) [X] $___, $100 State Crime Laboratory Fee (RCW
43.43.690); [X] Laboratory fee waived;

App. 30
(g) [X] $___, Incarceration costs (RCW 9.94A.760(2));
[X] Incarceration costs waived;
(h) [X] $___, Other costs for
4.3 PAYMENT SCHEDULE: Defendant’s TOTAL
FINANCIAL OBLIGATION is $1,666.38. The
payments shall be made to the King County Superior Court Clerk according to the rules of the
Clerk and the following terms: [X] Not less than
$_____ per month; [🗸] On a schedule established
by the defendant’s Community Corrections Officer or Department of Judicial Administration
(DJA) Officer. Financial obligations shall bear interest pursuant to RCW 10.82.090. The Defendant shall remain under the Court’s
jurisdiction to assure payment of financial
obligations: for crimes committed before
7/1/2000, for up to ten years from the date
of sentence or release from total confinement, whichever is later; for crimes committed on or after 7/1/2000, until the
obligation is completely satisfied. Pursuant
to RCW 9.94A.7602, if the defendant is more
than 30 days past due in payments, a notice of
payroll deduction may be issued without further
notice to the offender. Pursuant to RCW
9.94A.760(7)(b), the defendant shall report as
directed by DJA and provide financial information as requested.
[🗸]

Court Clerk’s trust fees are waived.

[🗸] Interest is waived except with respect to restitution.

App. 31

4.4 CONFINEMENT ONE YEAR OR LESS: Defendant shall serve a term of confinement as follows, commencing; [X] immediately; [X] (Date):
N/A by ___a.m./p.m.:
6 months/days on count I; ___ months/days on
count ___; ___ months/day on count ___
This term shall be served: N/A
[X] in the King County Jail or if applicable
under RCW 9.94A.190(3) in the Department
of Corrections.
[X] in King County Work/Education Release (W/ER) subject to conditions of conduct
ordered this date.
[X] Defendant shall report to and participate in Enhanced CCAP if not working
while in W/ER.
[X] in King County Electronic Home Detention (EHD) subject to conditions of conduct ordered this date.
[X] For any burglary, before entering
EHD, 21 days must be successfully completed in W/ER.
[X] The terms in Count(s) No. _____________
are consecutive/ concurrent.
This sentence shall run [X] CONSECUTIVE [X]
CONCURRENT to the sentence(s) in cause ______
______________________________________________

App. 32
The sentence(s) herein shall run [X] CONSECUTIVE [X] CONCURRENT to any other term previously imposed and not referenced in this order.
Credit is given for time served in King County
Jail or EHD solely for confinement under this
cause number pursuant to RCW 9.94A.505(6): [X]
____ day(s) or [X] days determined by the King
County jail.
* [🗸] Jail term is satisfied; defendant shall be released under this cause.
[X] Credit is given for days determined by the King
County Jail to have been served in the King
County Supervised Community Option (Enhanced
CCAP) solely under this cause number.
[X] The court authorizes earned early release
credit consistent with the local correctional facility
standards for days spent in Enhanced CCAP.
ALTERNATIVE
CONVERSION
(RCW
9.94A.680): _____ days of confinement are hereby
converted to:
[X] _____ days/hours community restitution (for nonviolent offenses only), to be completed by _________________, 20 ___ [X] under
the supervision of the Department of Corrections; or if the defendant is not supervised by
DOC, monitored by [X] Helping Hands Program [X] this court.
[X] A review hearing is set on __________,
20___ at ____a.m./p.m. in this courtroom.

App. 33
[X] ______ days in Enhanced CCAP (for nonviolent, non-sex offenses only) subject to conditions of conduct ordered this date.
[X] Alternative conversion was not used because of: [X] criminal history, [X] failure(s) to
appear,
[X] Other: _________________________
4.5 [🗸] COMMUNITY CUSTODY is ordered for a period of 12 months. The defendant shall report to
the Department of Corrections within 72 hours of
this date or of his/her release if now in custody;
shall comply with all the rules, regulations and
conditions of the Department for supervision of offenders (RCW 9.94A.704); shall comply with all affirmative acts required to monitor compliance;
shall not possess any firearms or ammunition; and
shall otherwise comply with terms set forth in this
sentence.
[X] Appendix H, Additional Conditions is attached and incorporated.
4.6 [🗸] NO CONTACT: For the maximum term of 10
years, defendant shall have no contact with Randall Rasan.
4.7 DNA TESTING. The defendant shall have a biological sample collected for purposes of DNA identification analysis and the defendant shall fully
cooperate in the testing, as ordered in Appendix
G. [not necessary if already completed]

App. 34
[X] HIV TESTING: For sex offense, prostitution
offense, drug offense associated with the use of hypodermic needles, the defendant shall submit to
HIV testing as ordered in Appendix G.
4.8 [X] OFF-LIMITS ORDER: (known drug trafficker) Appendix I is an off limits order that is
part of and incorporated by reference into this
Judgment and Sentence.
Date: 3/30/12

/s/ MS
JUDGE
Print
Name: Mariane C. Spearman

Presented by:

Approved as to form:

/s/ Jim Ferrell
Deputy Prosecuting
Attorney WSBA#
24314
Print
Name: Jim Ferrell

/s/ Lenell Nussbaum
Attorney for
Defendant, WSBA#
11140
Print
Name: Lenell Nussbaum

App. 35
FINGERPRINTS

BEST AVAILABLE IMAGE POSSIBLE
RIGHT HAND
FINGERPRINTS OF:
KENNETH FRANKLIN MILLER
DEFENDANT’S SIGNATURE: /s/ Kenneth F. Miller
DEFENDANT’S ADDRESS:

DATED: 3/30/12

3714 140th Ave SE
Bellevue WA 98006

ATTESTED BY:
BARBARA MINER,
SUPERIOR COURT CLERK

MS
By: /s/ Andre Jones
JUDGE, KING COUNTY
DEPUTY CLERK
SUPERIOR COURT
Mariane C. Spearman

App. 36

CERTIFICATE

OFFENDER
IDENTIFICATION

I, ___________________________,
CLERK OF THIS COURT,
CERTIFY THAT THE ABOVE
IS A TRUE COPY OF THE
JUDGEMENT AND SENTENCE IN THIS ACTION
ON RECORD IN MY OFFICE
DATED: ____________________

S.I.D. NO.
DOB: JANUARY 29,
1963
SEX: M
RACE: W

CLERK
BY:
DEPUTY CLERK
SUPERIOR COURT OF
WASHINGTON FOR KING COUNTY
STATE OF WASHINGTON, )
)
Plaintiff,
)
)
vs.
)
KENNETH FRANKLIN
)
MILLER
)
Defendant, )
)

No. 09-1-07196-5 SEA
APPENDIX G
ORDER FOR
BIOLOGICAL
TESTING AND
COUNSELING

(1) DNA IDENTIFICATION (RCW 43.43.754):
The Court orders the defendant to cooperate with
the King County Department of Adult Detention,

App. 37
King County Sheriff ’s Office, and/or the State Department of Corrections in providing a biological
sample for DNA identification analysis. The defendant, if out of custody, shall promptly call the
King County Jail at 296-1226 between 8:00 a.m.
and 1:00 p.m., to make arrangements for the test
to be conducted within 15 days.
(2) ⬜ HIV TESTING AND COUNSELING (RCW
70.24.340):
(Required for defendant convicted of sexual
offense, drug offense associated with the use
of hypodermic needles, or prostitution related
offense.)
The Court orders the defendant contact the
Seattle-King County Health Department and
participate in human immunodeficiency virus
(HIV) testing and counseling in accordance
with Chapter 70.24 RCW. The defendant, if
out of custody, shall promptly call SeattleKing County Health Department at 205-7837
to make arrangements for the test to be conducted within 30 days.
If (2) is checked, two independent biological samples
shall be taken.
Date: 3/30/12

/s/ MS
JUDGE, King County
Superior Court
Mariane C. Spearman

App. 38
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
STATE OF WASHINGTON, )
)
Plaintiff,
)
)
vs.
)
KENNETH FRANKLIN
)
MILLER
)
Defendant, )
)

No. 09-1-07196-5 SEA
JUDGMENT AND
SENTENCE
APPENDIX H
COMMUNITY
CUSTODY

The Defendant shall comply with the following conditions of community custody, effective as of the date of
sentencing unless otherwise ordered by the court.
1)

Report to and be available for contact with the assigned community corrections officer as directed;

2)

Work at Department of Corrections-approved education, employment, and/or community restitution;

3)

Not possess, or consume controlled substances except pursuant to lawfully issued prescriptions;

4)

Pay supervision fees as determined by the Department of Corrections;

5)

Receive prior approval for living arrangements
and residence location; and

6)

Not own, use, or possess a firearm or ammunition.
(RCW 9.94A.706)

7)

Notify community corrections officer of any change
in address or employment;

App. 39
8)

Upon request of the Department of Corrections,
notify the Dept Intent of court-ordered treatment;

9)

Remain within geographic boundaries, as set forth
in writing by the Department of Corrections Officer or as set forth with SODA order.

[X] The defendant shall not consume any alcohol.
[🗸] Defendant shall have no contact with: Randall Rasan.
[X] Defendant shall remain [X] within [X] outside of a
specified geographical boundary, to wit: _________
______________________________________________
[X] The defendant shall participate in the following
crime-related treatment or counseling services: __
______________________________________________
[X] The defendant shall comply with the following
crime-related prohibitions: _____________________
______________________________________________
[X] ______________________________________________
Other conditions may be imposed by the court or Department during community custody.
Community Custody shall begin upon completion of
the term(s) of confinement imposed herein, or at the
time of sentencing if no term of confinement is ordered.
The defendant shall remain under the supervision of
the Department of Corrections and follow explicitly the
instructions and conditions established by that agency.
The Department may require the defendant to perform
affirmative acts deemed appropriate to monitor compliance with the conditions and may issue warrants
and/or detain defendants who violate a condition.

App. 40
Date: 3/30/12

/s/ MS
JUDGE
Mariane C. Spearman

App. 41
APPENDIX F
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
KENNETH MILLER,
NO.

Petitioner,
vs.
ROBERT FERGUSON,
Washington State
Attorney General,

PETITION FOR A WRIT
OF HABEAS CORPUS
(Filed Apr. 10, 2019)

Respondent.
Petitioner, Kenneth Miller, by and through his attorney James E. Lobsenz, avers as follows:
I.

PARTIES

1.1. Kenneth Miller, Petitioner, a resident of
King County, Washington, was convicted of Assault in
the Second Degree in a jury trial and a judgment of
conviction was entered on that verdict in the King
County Superior Court.
1.2. Respondent, Robert Ferguson, is the Attorney General of the State of Washington, and as such is
charged with the responsibility of enforcing all Washington laws.

App. 42
II.

JURISDICTION

2.1 The United States District Court has jurisdiction over this petition for a writ of habeas corpus
pursuant to 28 U.S.C. §§ 2254 and 1331. Petitioner contends that he is “in custody” for purposes of federal
court habeas corpus jurisdiction because he is subject
to a severe restraint on his individual liberty by reason
of a disability which flows directly from his conviction.
2.2 Pursuant to RCW 9.41.040 and a judgment
of the King County Superior Court, a Washington state
court, Petitioner is prohibited from possessing a firearm and thus he is deprived of his Second Amendment
right to bear arms. Petitioner maintains that this is a
serious disability which suffices to constitute “custody”
for habeas corpus purposes. Petitioner further maintains that the judgment entered against him was obtained in violation of his rights under the United
States Constitution.
III.

VENUE

3.1 Venue is proper in the United States District
Court for the Western District of Washington because
petitioner’s convictions were obtained in the King
County Superior Court in Seattle, Washington. See 28
U.S.C. § 2241(d).
IV.

PROCEDURAL HISTORY

4.1 Petitioner was charged in King County Superior Court with one count of Assault in the Second

App. 43
Degree. The case was tried to a jury, and the jury returned a general verdict finding him guilty as charged.
(Appendix A).
4.2 On March 30, 2012, the Superior Court sentenced Miller to serve six months in jail. (Appendix B).
Miller appealed to the Washington Court of Appeals.
4.3 Division One of the Washington Court of Appeals affirmed his conviction in an unpublished opinion issued on February 9, 2015. (Appendix C).
4.4. Miller sought discretionary review of that
decision and the Washington Supreme Court denied
his Petition for Review on July 8, 2015. (Appendix D).
4.5. The Washington Court of Appeals issued a
mandate on September 4, 2015. (Appendix E).
4.6 Miller did not petition the United States Supreme Court for a writ of certiorari to review the decision of the Washington Court of Appeals. The last day
on which he could have filed a petition for a writ of certiorari was October 6, 2015.
4.7 Pursuant to 28 U.S.C. §2244(d)(1)(A), the one
year period for filing a petition for a writ of habeas corpus in federal court began on October 7, 2015.
4.8 On August 23, 2016, 322 days after the start
of the federal one year period, Miller filed a Personal
Restraint Petition (a “PRP”) in the Washington Court
of Appeals. Pursuant to 28 U.S.C. §2244(d)(2), because
this was a properly filed state post-conviction petition,

App. 44
the filing of this PRP stopped the running of the one
year period for filing a federal habeas corpus petition.
4.9 When Miller’s PRP was filed on August 23,
2016, there were 43 days remaining on the federal one
year clock for filing a habeas corpus petition.
4.10 On August 23, 2017, Miller’s PRP was dismissed by the Acting Chief Judge of the Washington
Court of Appeals. (Appendix F).
4.11 On September 21, 2017, Miller filed a timely
motion for discretionary review of that dismissal order
in the Washington Supreme Court.
4.12 On December 15, 2017, a Commissioner of
the Washington Supreme Court denied Miller’s motion
for discretionary review.
4.13 On January 12, 2018, Miller filed a timely
motion to modify the ruling of the Supreme Court
Commissioner.
4.14 On March 7, 2018, the justices of the Washington Supreme Court denied Miller’s motion to modify the ruling of its Commissioner. This ruling ended
the tolling period provided by 28 U.S.C. §2244(d)(2) by
ending the time period during which a properly filed
state court post-conviction petition was pending in the
state courts. As of March 8, 2018, the remaining 43
days on the federal one year clock began to run again.
The last day upon which Miller can file a timely federal
habeas corpus petition is April 20, 2018.

App. 45
V.

GROUNDS FOR RELIEF

5.1 Petitioner submits that his conviction is contrary to the Constitution of the United States because
his trial attorney provided ineffective assistance of
counsel and thus denied Petitioner Miller his rights
under the Sixth Amendment to the U.S. Constitution.
VI.

OPERATIVE FACTS

6.1 In the Washington State Court of Appeals
and in the Washington State Supreme Court, Petitioner rested his claim of ineffective assistance of counsel on the following undisputed facts.
a. Miller’s trial counsel failed to object to the
trial court’s jury instruction No. 8 on the ground that
it included reference to a “fracture of a body part” as
one of the alternate ways in which the prosecution
could prove that a “substantial bodily injury” was inflicted on the alleged victim.
b. Miller’s trial counsel failed to object to the admissibility of Dr. Craig Pratt’s testimony that although
he could not recall whether he ever saw any fracture
on a CT-scan, and although there was nothing in his
chart notes to indicate that he ever saw a fracture in
the CT-scan, his naked eye visual observation that the
nose was displaced to the left “would suggest a fracture” of the nose. Dr. Pratt was never asked if he could
say, with reasonable medical certainty, that in his opinion the victim’s nose was fractured, and Miller’s trial

App. 46
counsel never objected to him testifying without first
providing such a foundation.
c. His trial counsel failed to object to the admissibility of Dr. Lori Anderton’s [sic] that although the
CT-scan of the victim’s face “said no facial fractures
seen,” the fact that the victim’s nose was seen to be
“crooked,” and the fact that his nose was swollen with
bleeding on the inside, when he was examined, “would
suggest” that his nose was broken. Dr. Anderton was
never asked if she held the opinion, with reasonable
medical certainty, that the victim’s nose was fractured,
and trial counsel never objected to her testifying without first providing such a foundation.
6.2. Petitioner submits that each individual act
of deficient conduct caused prejudice, and, in the alternative, that prejudice resulted from the cumulative effect of his trial counsel’s multiple deficiencies. See, e.g.,
Ramseyer v. Wood, 64 F.3d 1432, 1438 (9th Cir. 1995);
Boyde v. Brown, 404 F.3d 1159, 1176 (9th Cir. 2005).
VII.

EXHAUSTION

7.1 Consistent with 28 U.S.C. § 2254(b), all
grounds for relief raised in this Petition for Writ of Habeas Corpus have been raised before the Washington
Court of Appeals and the Washington Supreme Court.
See In re Personal Restraint of Kenneth Miller, COA
No. 75687-7-I and Washington Supreme Court No.
95021-1-I.

App. 47
VIII.

EVIDENTIARY HEARING

8.1 Petitioner’s trial counsel executed a declaration, which was filed in the Washington Court of Appeals,
wherein she acknowledges that her representation of
Miller at trial was deficient conduct and that she had
no strategic reason for her failure to take several actions. Declaration of Lenell Nussbaum, ¶¶ 12-13, 20-23
(copy attached as Appendix G). There are no factual
disputes regarding the thinking of Petitioner’s trial
counsel and it is undisputed that trial counsel never
thought of making the objections or taking the actions
which Petitioner asserts she should have made and
taken.
8.2 The Washington Court of Appeals made no
ruling regarding the deficient conduct prong of the
Strickland test for ineffective assistance. The state
court relied solely upon the prejudice prong of the
Strickland test as a basis for rejecting Petitioner’s
claim of ineffective assistance.
8.3 The state court made no findings of fact in
the personal restraint petition proceeding. Since there
are no state court findings of fact, there are no fact
findings that are binding on this court pursuant to 28
U.S.C. § 2254(d). And since there are no disputed facts,
only disputed legal conclusions, Petitioner believes
there is no need for this Court to hold an evidentiary
hearing.

App. 48
IX. ISSUE OF “CUSTODY” FOR
PURPOSES OF HABEAS CORPUS
9.1 Petitioner has already served his six month
jail sentence and is no longer on probation. Thus, the
usual form of “custody” that a state court convict asserts for purposes of federal habeas corpus review of
his conviction is absent in this case.
9.2 However, by reason of RCW 9.41.040 (copy
attached as Appendix H) and his conviction for a crime
that is classified as a “serious offense,” under Washington State law Petitioner is prohibited from possessing
a firearm. He may not even keep a firearm in his home
for the protection of himself and his wife. Thus, Petitioner has been and continues to be deprived of his
Second Amendment right to bear arms. Petitioner
maintains that this is a serious disability which suffices to constitute “custody” for habeas corpus purposes.
9.3 So far as Petitioner is aware, there is no case
law, either in this Circuit or in any other Circuit, which
directly addresses the legal question of whether deprivation of the Second Amendment right to bear arms is
a severe enough restriction on individual liberty so as
to constitute “custody” for purposes of federal court jurisdiction over a petition for a writ of habeas corpus.
Petitioner believes that this is an issue of first impression.
9.4 Petitioner seeks bifurcation of the legal issues before this Court. Petitioner asks this Court to
consider and decide the issue of “custody” first, and

App. 49
then a second stage of the litigation of this case, to consider the merits of Petitioner’s claim that his Sixth
Amendment right to effective assistance of counsel was
violated, and that the Washington Court of Appeals determination of his Sixth Amendment claim is contrary
to clearly U.S. Supreme Court precedent, an unreasonable application of settled Supreme Court precedent,
(or both).
9.5 Petitioner submits that a bifurcated approach
to the legal issues in this case may prove to be more
cost efficient for the parties and a more sensible use of
judicial resources for this Court. Ultimately, if this
Court agrees with Petitioner that the restriction on his
right to possess a firearm is a sufficiently severe restriction on his liberty so as to constitute “custody” for
habeas corpus purposes, then this Court will have to
move to the next stage and decide the legal issues relevant to the merits of Petitioner’s Sixth Amendment
claim. If, however, this Court does not accept Petitioner’s contention that such a restriction on liberty
constitutes “custody” for habeas corpus purposes, then
it will not need to consider and decide the merits of his
Sixth Amendment claim. If this Court makes the latter
decision, then Petitioner can keep the cost of this litigation down, and this Court can conserve judicial resources.

App. 50
X.

RELIEF REQUESTED

Wherefore Petitioner Miller prays that this Court:
10.1 Require Respondent to file an answer to this
petition in the form prescribed by Rule 5 of the Rules
Governing § 2254 Cases in the United States District
Court, identifying all state proceedings conducted in
Petitioner’s case, and specifically admitting or denying
the allegations set forth in this Petition.
10.2 Permit Petitioner to respond to any affirmative defenses that may be raised by Respondent in his
Answer.
10.3 Set a briefing schedule for consideration of
the preliminary legal question of whether the restriction on Petitioner’s right to possess a firearm constitutes “custody” for purposes of federal habeas corpus
review of a state court conviction. Petitioner’s opening
brief on the issue of custody accompanies this Petition.
Therefore, Petitioner asks the Court to set a schedule
for the submission of the State’s response and for Petitioner’s reply brief on this issue only.
10.4 Assuming this Court accepts Petitioner’s
contention that the restriction in his right to possess a
firearm satisfied the definition of “custody” for habeas
corpus purposes, Petitioner asks the Court to set a
schedule for a second round of briefing in which the
parties are to address the merits of Petitioner’s Sixth
Amendment claim of ineffective assistance of counsel.
10.5 Issue a writ of habeas corpus, vacate Petitioner’s convictions, enter an order granting a new

App. 51
trial, or in the alternative, directing Respondent to release the petitioner from custody in the event the State
declines to retry the case.
10.6 Grant such other relief as the court may
deem appropriate and just.
DATED this 10th day of April, 2018.
By

s/ James E. Lobsenz
James E. Lobsenz WSBA #8787
Attorneys for Petitioner
CARNEY BADLEY
SPELLMAN, P.S.
701 Fifth Avenue, Suite 3600
Seattle, WA 98104
Phone: (206) 622-8020
Facsimile: (206) 467-8215
lobsenze@carneylaw.com

DECLARATION OF PETITIONER
I declare under penalty of perjury under the laws
of the United States of America that the foregoing is
true and correct.
Executed on this 9th day of April 2018.
/s/ Kenneth Miller
Kenneth Miller
Petitioner

App. 52
APPENDIX G
COURT OF APPEALS, DIVISION I
OF THE STATE OF WASHINGTON
In re the Personal
Restraint of
KENNETH MILLER,

NO.
DECLARATION OF
KENNETH MILLER

Petitioner,
I, Kenneth Miller, do hereby declare under penalty of
perjury under the laws of the State of Washington, that
the following facts are true and correct:
1. I am the Petitioner in this case. I have personal
knowledge of the facts set forth here.
2. A jury found me guilty of Assault 2 and the Honorable Marianne Spearman sentenced me on March 30,
2012. I was sentenced to serve six months in jail.
3. I have completed my jail sentence, and I have paid
the restitution. I am still making monthly payments to
pay off the court costs which Judge Spearman imposed.
4. However, I continue to suffer from disabilities
caused by my conviction for Assault 2.
5. Because Assault 2 is a “crime of violence” and a
“serious offense,” I am prohibited from owning or possessing a firearm. If I were to possess a firearm I would
commit the felony offense of unlawful possession of a
firearm.

App. 53
6. I will be eligible to petition the Superior Court for
restoration of my right to bear arms if I remain crime
free when five years have elapsed, that time period has
not yet elapsed and thus I cannot petition for restoration of my gun rights at the present time.
7. Before I was convicted I owned and possessed a
gun that my grandfather gave me when I was a young
man. But because of my conviction I had to get rid of
it. My wife would like to keep a firearm in the house
since she was the victim of a violent crime. But because
I cannot have a gun under my control, my wife cannot
keep a firearm in our house either.
8. Accordingly, due to my conviction for Assault 2 I
am under a disability which deprives me of my Second
Amendment and my state constitutional rights to bear
arms.
9. My Assault 2 conviction has also made it very difficult for me to obtain employment. Since my conviction in 2012, I have applied for several jobs but no one
wants to hire a person with a felony conviction for
Assault 2. For example, in July of last year I was offered a job to work as a Quality engineer. (See letter of
July 23, 2015, copy attached). I accepted the job, but
three days before I was to report for my first day of
work, the employer notified me that they were rescinding the job offer because they determined they could
not employ a person like me with a conviction for Assault 2.

App. 54
10. Accordingly, due to my conviction for Assault 2 I
am under a disability which routinely makes it impossible for me to secure positions of employment.
DATED this 18th day of August, 2016.
/s/ Kenneth Miller
Kenneth Miller
Petitioner
[Certificate Of Service Omitted]

App. 55
APPENDIX H
COURT OF APPEALS, DIVISION I
OF THE STATE OF WASHINGTON
In re the Personal
Restraint of
KENNETH MILLER,

NO.
DECLARATION OF
LENELL NUSSBAUM

Petitioner,
I, Lenell Nussbaum, do hereby declare under penalty of perjury under the laws of the State of Washington that the following facts are true and correct:
1. I have personal knowledge of the facts set
forth here.
2. I represented Petitioner Kenneth Miller in a jury
trial held before the Honorable Marianne Spearman in
King County Cause No. 09-1-07196-5 SEA. Miller was
accused of Assault 2 for intentionally assaulting Randall Rasar and thereby recklessly inflicting substantial
bodily harm upon him. This trial was held in March of
2012 and the jury found Miller guilty as charged.
3. RCW 9A.04.110(4)(b) defines the element of
“substantial bodily harm.” It gives three alternative
definitions: (1) temporary but substantial disfigurement, (2) temporary but substantial loss or impairment of the function of any bodily part or organ, and
(3) a fracture of any bodily part. In Miller’s case, the
prosecution maintained that the injury that Miller inflicted upon Rasar satisfied all three alternative types

App. 56
of substantial bodily harm. The prosecution specifically argued that the injury to Rasar’s nose, inflicted
by Miller, constituted a fracture of a bodily part.
4. The jury returned a general verdict finding
Miller guilty. (Copy attached as Appendix A.) The general verdict did not specify which type, or types, of substantial bodily harm the jury had found. No special
verdict was submitted to the jury for its consideration.
Thus there is no way of knowing whether any juror relied upon the fracture-of-any-bodily-part alternative,
or whether all twelve jurors agreed that at least one of
the two other alternative types of substantial bodily
harm had been proved beyond a reasonable doubt.
5. Miller appealed his conviction to Division One
of the Washington Court of Appeals and I represented
him in that direct appeal as well. The Court of Appeals
affirmed his conviction in an unpublished opinion issued on February 9, 2015.
6. Miller sought discretionary review of the
Court of Appeals’ decision from the Washington Supreme Court and the Supreme Court denied his Petition for Review on July 8, 2015. I also represented
Miller in that Petition for Review proceeding. The
Court of Appeals issued its mandate on September 4,
2015.
7. At trial, right after the prosecution rested, I
moved to dismiss the case. I argued there was no evidence that the injury inflicted constituted a fracture of
a bodily part. (See RP 288-89, attached as Appendix B.)
Drs. Anderton and Pratt testified for the prosecution.

App. 57
8. Although Dr. Anderton used the phrase “clinical fracture,” she used that phrase to describe an injury that doctors treat in the same manner regardless
of whether there actually is a fracture. RP 215. Dr. Anderton testified that Rasar’s nose was crooked, and
that that was an indication that “suggested” that his
nose was fractured. RP 213. She also testified that a
CT scan did not show any fracture of any facial bone.
RP 214. She testified that “it doesn't matter whether
or not the radiologist saw any broken bones in the nose
because regardless of what you see on x-rays the treatment is the same.” RP 214. Because the medical treatment is the same whether or not there is a broken
bone, she referred to Rasar’s nose as “clinically fractured.” RP 215.
9. Initially Dr. Pratt testified that he saw a CT
Scan that showed a fracture. RP 228. But on crossexamination he immediately reversed that testimony;
he said that if he had testified that he saw a CT-scan
then he had made a mistake. RP 246. He then proceeded to testify that he never indicated that he saw a
fracture and that he could not say whether he ever saw
a fracture. RP 247, 259. He did testify that Rasar’s nose
was not in the right position because it was “moved
over to the left, which would suggest a fracture.” RP
228.
10. I argued to the trial judge that “the State has
failed to prove or present any evidence from which a
jury could find beyond a reasonable doubt that there
was in fact a fracture of any bodily part.” RP 289.

App. 58
11. The trial judge denied my motion to dismiss
the case. I see now that in her ruling she never addressed the question of whether there was evidence of
a fracture. Instead, the trial judge ruled that there was
sufficient evidence of disfigurement and of impairment
of bodily function, the other two types of substantial
bodily harm. The trial judge declined to dismiss the
charge of Assault 2. RP 289.
12. At the conclusion of the trial when the judge
asked the parties for their exceptions to the Court’s
jury instructions, I did not take any exception to Instruction No. 8. (Copy attached as Appendix C.) Instruction No. 8 stated:
Substantial bodily harm means bodily injury
that involves a temporary but substantial disfigurement, or that causes a temporary but
substantial loss of [sic] impairment of the
function of any bodily part or organ, or that
causes a fracture of any bodily part.
(Emphasis added).
13. I had no strategic reason for failing to object
to Instruction No. 8. Such an exception would have
been consistent with my earlier argument in support
of my motion to dismiss when the State rested. I should
have objected to the language addressing a fracture in
the instruction. Failing to do so was deficient performance.
14. If I had taken exception to Instruction No. 8
on this ground, I believe it is very likely that Judge

App. 59
Spearman would have revised Instruction No. 8 by
eliminating the reference to the fracture alternative.
15. In closing argument the prosecutor argued
that the State had proved all three alternative types of
substantial bodily harm, and he specifically argued
that the State had proved that Miller inflicted a fracture.
16. I did not ask the trial judge to submit a special verdict to the jury which would direct the jurors to
disclose which of the three alternative types of substantial bodily harm they found; whether they unanimously found any particular alternative; and whether
any juror found only the fracture alternative.
17. I had no strategic reason for failing to propose and request such a special verdict.
18. I am generally familiar with the legal principle that “if the evidence is insufficient to present a jury
question as to whether the defendant committed the
crime by any one of the means submitted to the jury,
the conviction will not be affirmed.” I understand this
principle is enunciated in State v. Ortega-Martinez, 124
Wn.2d 702, 708, 881 P.2d 231 (1994). Under these circumstances there is a violation of the state constitutional right to a unanimous jury verdict. A claim of a
violation of this right can be raised for the first time on
appeal. State v. Watkins, 136 Wn. App. 240, 244-45, 148
P.3d 1112 (2006); State v. Bobenhouse, 166 Wn.2d 881,
892 n.4, 214 P.3d 907 (2009).

App. 60
19. In Miller’s direct appeal I failed to raise
the claim that his case falls within the rule of OrtegaMartinez and that Miller’s right to a unanimous jury
verdict was violated because the evidence was legally
insufficient to support the fracture alternative and the
jurors’ general verdict makes it impossible to know
whether one or more jurors relied solely on this alternative as the basis for his or her verdict. I had no strategic reason for failing to raise this issue. I simply
never thought of it. This failure was deficient performance.
20. I am generally familiar with the rule that in
order to be admissible, the opinion of a medical doctor
must be an opinion which the doctor holds with a reasonable degree of medical certainty. I know that reasonable degree of medical certainty means that the
doctor believes that her opinion more likely than not is
correct. I understand that a physician’s testimony that
fails to meet this standard is inadmissible because it
constitutes mere conjecture.
21. I did not object to the admissibility of the testimony of either Dr. Anderton or Dr. Pratt regarding
the presence of a fracture on the grounds that neither
one had testified that they could say with a reasonable
degree of medical certainty that Miller had inflicted an
actual fracture. They both testified that there were indications that “suggested” that Rasar had a fracture,
but neither one testified that it was more probable
than not that he had an actual fracture.

App. 61
22. I had no strategic reason for failing to make
this objection and for failing to raise this issue in the
trial court. I believe this failure to object was deficient
performance.
23. If I had objected on this ground I believe the
trial judge would have sustained my objection and
thus neither doctor would have been allowed to testify
that what they saw “suggested” that there was an actual fracture of a bodily part.
DATED this 10th day of August, 2016.
/s/ Lenell Nussbaum
Lenell Nussbaum,
WSBA #11140
[Certificate Of Service Omitted]

